No. ______
In the

Supreme Court of the United States
__________________
ROBERT HOCH,
Petitioner,
v.
MBI ENERGY SERVICES,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit
__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Charles Kannebecker, Esq.
The Law Office of
Charles Kannebecker
104 W. High Street
Milford, PA 18337
kannebecker@wskllawfirm.com
(570) 296-6471

Robert Pratter, Esq.
Counsel of Record
Cohen, Placitella and Roth
127 Maple Avenue
Red Bank, NJ 07701
rpratter@cprlaw.com
(215) 567-3500

Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether an ERISA Plan Administrator may enforce
reimbursement provisions against an ERISA
beneficiary that are contained only in a Summary Plan
Description and where no ERISA Plan document
containing the reimbursement provisions exists, in
contravention of this Court’s holding in Cigna Corp. v.
Amara, 563 U.S. 421 (2011), that enforceable terms
within ERISA must be contained in the Plan document
and cannot be contained only in a Summary Plan
Description.

ii
PARTIES TO THE CASE
Robert Hoch, Petitioner, was the DefendantAppellant below. MBI Energy Services, Inc.,
Respondent, was the Plaintiff-Appellee below.
STATEMENT OF RELATED PROCEEDINGS
• MBI Energy Services, Inc. v. Robert Hoch, et. al.,
No. 18-1539 (8th Cir.) (opinion issued and judgment
entered July 3, 2019; mandate issued July 24,
2019).
• MBI Energy Services, Inc. v. Robert Hoch, et. al.,
No. 16-cv-329-DLH-CSM (D. N. Dakota)
(memorandum of decision issued Feb. 28, 2018;
judgment entered Feb. 28, 2018).
There are no additional proceedings in any court
that are directly related to this case.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE CASE . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 1
CONCISE STATEMENT OF THE CASE . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION FOR
WRIT OF CERTIORARI. . . . . . . . . . . . . . . . . . . . 3
A. Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
C. Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
1. The syntax of ERISA § 102(a), requiring that
participants and beneficiaries be advised of
their rights and obligations “under the Plan,”
suggests that the information about the Plan
provided by those disclosures is not itself
part of the Plan, even where no other Plan
document exists. . . . . . . . . . . . . . . . . . . . . . . 15

iv
2. The division of authority between a Plan’s
sponsor and the Plan’s administrator
demonstrates that the terms of the Summary
Plan Description are not enforceable as the
Plan terms, even where no other Plan
document exists. . . . . . . . . . . . . . . . . . . . . . . 20
3. Congress’ objective of achieving clear, simple
communication is contravened if the
Summary Plan Description is made legally
enforceable, even where no other Plan
document exists. . . . . . . . . . . . . . . . . . . . . . . 24
4. Amara does not limit its holding to instances
where a Summary Plan Description conflicts
with an ERISA Plan document. . . . . . . . . . . 27
5. Granting the petition would not put Plan
benefits provided solely under the terms of a
Summary Plan Description in danger. . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Eighth
Circuit
(July 3, 2019) . . . . . . . . . . . . . . . . App. 1

v
Appendix B Order Granting Plaintiff’s Motion for
Summary Judgment and Motion to
Dismiss and Denying Defendant’s
Motion for Partial Summary
Judgment in the United States
District Court for the District of North
Dakota
(February 28, 2018) . . . . . . . . . . App. 13
Appendix C Verified Complaint and Exhibit 2 to
Verified Complaint (Summary Plan
Description) in the United States
District Court for the District of North
Dakota (Excerpts)
(September 9, 2016) . . . . . . . . . . App. 25
Appendix D Answering Brief of Appellee MBI
Energy Services in the United States
Court of Appeals for the Eighth
Circuit (excerpts)
(May 22, 2018) . . . . . . . . . . . . . . App. 50

vi
TABLE OF AUTHORITIES
CASES
Admin. Comm. of Wal-Mart Stores, Inc. Assocs.’
Health & Welfare Plan v. Gamboa,
479 F.3d 538 (8th Cir. 2007). . . . . . . . . . . . passim
Baker v. Pa. Economy League, Inc. Retirement
Income Plan,
811 F. Supp. 2d 1136 (E.D. Pa. 2011) . . . . . . . . 30
Cigna Corp. v. Amara,
563 U.S. 421 (2011). . . . . . . . . . . . . . . . . . . passim
Curtiss-Wright Corp. v. Schoonejongen,
514 U.S. 73, 115 S. Ct. 1223, 131 L. Ed. 2d 94
(1995). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Daniel v. Master Health Plan, Inc.,
864 F. Supp. 1399 (S.D. Ga. 1994) . . . . . . . . 24, 25
Diaz v. United Agr. Emp. Welf. Benefit Plan,
50 F.3d 1478 (9th Cir. 1995). . . . . . . . . . . . . . . . 24
Dugan v. Hobbs,
99 F.3d 307 (9th Cir. 1996). . . . . . . . . . . . . . . . . . 5
Grosz-Salomon v. Paul Revere Life Ins. Co.,
237 F.3d 1154 (9th Cir. 2001). . . . . . . . . . . . . . . 22
Koehler v. Aetna Health Inc.,
683 F.3d 182 (5th Cir. 2012). . . . . . . . . . . . . . . . 30
Massachusetts Mut. Life Ins. Co. v. Russell,
473 U.S. 134 (1985). . . . . . . . . . . . . . . . . . . . 17, 18

vii
Mertens v. Hewitt Assocs.,
508 U.S. 248 (1993). . . . . . . . . . . . . . . . . 17, 18, 19
Nachman Corp. v. Pension Benefit Guaranty
Corporation,
446 U.S. 359 (1980). . . . . . . . . . . . . . . . . . . . . . . 17
Ringwald v. Prudential Ins. Co. of America,
609 F.3d 946 (8th Cir. 2010). . . . . . . . . . . . . . . . 22
Schwartz v. Prudential Ins. Co. of Am.,
450 F.3d 697 (7th Cir. 2006). . . . . . . . . . . 6, 16, 22
Sereboff v. Mid Atlantic Medical Services, Inc.,
547 U.S. 356 (2006). . . . . . . . . . . . . . . . . . . . . . . . 3
Shaw v. Conn. Gen. Life Ins. Co.,
353 F.3d 1276 (11th Cir. 2003). . . . . . . . . . . . . . 22
Stiso v. Int’l Steel Group,
No. 13-3503 (6th Cir. Mar. 25, 2015) . . . . . . . . . 30
U.S. Airways, Inc. v. McCutchen,
569 U.S. 88 (2013). . . . . . . . . . . . . . . . . . . . . . 4, 23
Van Orman v. American Ins. Co.,
680 F.2d 301 (3d Cir. 1982) . . . . . . . . . . . . . . . . . 5
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 1002(1). . . . . . . . . . . . . . . . . . . . . . . . 6, 15
29 U.S.C. §§ 1021-1031 . . . . . . . . . . . . . . . . . . . . . . 24
29 U.S.C. § 1022 . . . . . . . . . . . . . . . . . . . . . . . . passim

viii
29 U.S.C. § 1022(a). . . . . . . . . . . . . . . . . . . . . . . . . . 24
29 U.S.C. § 1022(b). . . . . . . . . . . . . . . . . . . . . . . . . . 16
29 U.S.C. § 1024(b)(2) . . . . . . . . . . . . . . . . . . . . . . . 17
29 U.S.C. § 1024(b)(4) . . . . . . . . . . . . . . . . . . . . . . . 17
29 U.S.C. § 1102 . . . . . . . . . . . . . . . . . . . . . . . . passim
29 U.S.C. § 1102(b). . . . . . . . . . . . . . . . . . . . . . . 16, 19
29 U.S.C. § 1132(a)(3) (ERISA § 502(a)(3)) . . . passim
29 U.S.C. § 1132(e)(1) . . . . . . . . . . . . . . . . . . . . . . . . 2
ERISA § 102(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
ERISA § 502(a)(1)(B) . . . . . . . . . . . . . . . . . . . . . . . 6, 9
H.R. Rep. No. 93-1280 (1974) . . . . . . . . . . . . . . . . . 16

1
PETITION FOR WRIT OF CERTIORARI
Robert Hoch respectfully petitions this court for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Eighth Circuit.
OPINIONS BELOW
The decision by the District Court for the District of
North Dakota is annexed to the appendix at Pet. App.
13 - 24. The decision by the United States Court of
Appeals for the Eighth Circuit is annexed to the
appendix at Pet. App. 1 - 10.
STATEMENT OF JURISDICTION
The United States Court of Appeals for the Eighth
Circuit issued its opinion and judgment on July 3,
2019. Pet. App. 11. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
ERISA § 502(a)(3), 29 U.S.C. § 1132(a)(3):
(a) Persons empowered to bring a civil
action A civil action may be brought—
(3) by a participant, beneficiary, or fiduciary
(A) to enjoin any act or practice which
violates any provision of this subchapter or
the terms of the plan, or (B) to obtain other
appropriate equitable relief (i) to redress
such violations or (ii) to enforce any
provisions of this subchapter or the terms of
the plan;

2
CONCISE STATEMENT OF THE CASE
Robert Hoch (“Hoch”) was a member and beneficiary
of a self-funded employee benefit plan (“the Plan”)
sponsored and administered by MBI Energy Services,
Inc. (“MBI”). Pet. App. at 2. The Plan provided Hoch
$68,210.38 in medical benefits after he was injured in
an accident. Id. Hoch reached a settlement with the
tortfeasor responsible for his injury and received a
settlement from the tortfeasor’s insurer. Id.
MBI demanded that Hoch reimburse MBI for the
benefits it paid to Hoch and based its repayment
demand on subrogation terms that were contained only
in a Summary Plan Description. No MBI Energy
ERISA Plan document existed to contain
reimbursement requirements.
Hoch disputed MBI’s entitlement to reimbursement.
MBI filed suit against Hoch in the United States
District Court for the District of North Dakota, seeking
to enforce the terms of the Summary Plan Description
against Hoch pursuant to 29 U.S.C. § 1132(a)(3). Id.
The District Court had jurisdiction pursuant to 29
U.S.C. § 1132(e)(1), conferring on district courts of the
United States exclusive jurisdiction of civil actions
brought pursuant to 29 U.S.C. § 1132(a)(3). The Court
of Appeals for the Eighth Circuit had jurisdiction
pursuant to 28 U.S.C. § 1291.

3
REASONS FOR GRANTING THE PETITION
FOR WRIT OF CERTIORARI
A. Introduction
This Court should grant Hoch’s Petition for Writ of
Certiorari because the United States Court of Appeals
for the Eighth Circuit has decided an important
question of federal law that has not been, but should
be, settled by this Court.
Specifically, the United States Court of Appeals for
the 8th Circuit held that even though the
reimbursement terms were contained only in a
Summary Plan Description and not in an ERISA Plan,
the repayment terms were legally operative because no
ERISA Plan document existed.
This Court has decided that a health-plan
administrator may enforce a reimbursement provision
of a Plan document by filing suit under § 1132(a)(3) of
ERISA. See Sereboff v. Mid Atlantic Medical Services,
Inc., 547 U.S. 356 (2006).
This Court next decided that Summary Plan
Descriptions, “important as they are, provide
communication with beneficiaries about the plan, but
that their statements do not themselves constitute the
terms of the plan.” Cigna Corp. v. Amara, 563 U.S. 421,
438 (2011).
However, this Court has not decided the significant
and recurring issue of whether a plan administrator
may enforce a reimbursement provision of a Summary
Plan Description in a § 1132(a)(3) action when no

4
separate plan document exists.1 This question is an
important issue affecting millions of ERISA plan
beneficiaries and is ripe for this Court's review. This
case is an appropriate vehicle for deciding this question.
The Eighth Circuit Court of Appeals was not faithful
to and evaded this Court’s ruling in Cigna Corp. v.
Amara. The Eighth Circuit’s decision that the terms of
a Summary Plan Description may be enforced as if
terms of a plan because the employer did not have an
ERISA Plan document in violation of ERISA
undermines and conflicts with this Court’s holding and
reasoning in Cigna Corp. v. Amara, 563 U.S. 421 (2011).
The Eighth Circuit itself recognized that this
Court’s holding in Amara undermined the Eighth
Circuit’s own prior holding and reasoning in its case of
Admin. Comm. of Wal-Mart Stores, Inc. Assocs.’ Health
& Welfare Plan v. Gamboa, 479 F.3d 538 (8th Cir.
2007), that the Summary Plan Description contained
the enforceable terms of the plan, see Pet. App. at 7
(App. Ct. Op. at *6), and that “conflating a plan and a
summary plan description risks undermining ERISA’s

1

In U.S. Airways, Inc. v. McCutchen, 569 U.S. 88 (2013), this
Court treated the language of a Summary Plan Description as the
terms of the plan. However, this Court expressly noted that “We
have made clear that the statements in a summary plan
description “communicat[e] with beneficiaries about the plan, but
. . . do not themselves constitute the terms of the plan.”
McCutchen, 569 U.S. at 91 n.1. (citing CIGNA Corp. v. Amara, 563
U.S. 421, 438 (2011).” The only reason this Court treated the terms
of the Summary Plan Description as the terms of the plan was
because “the parties litigated this case, and both lower courts
decided it, based solely on the language [of the SPD].” Id.

5
goal that the summary plan description embody ‘clear,
simple communication[.]’” Id. at 9 (App. Ct. Op. at *7).
The argument set forth in this petition explains that
the Eighth Circuit’s holding that a Summary Plan
Description can be both a Summary Plan Description
and also the ERISA Plan itself undermines and
conflicts with this Court’s holding and reasoning in
Amara. Amara’s directive that Summary Plan
Descriptions “provide communication with beneficiaries
about the plan” and “do not themselves constitute the
terms of the plan” is equally applicable to a situation
where a plan administrator seeks to enforce a
reimbursement provision that is contained only in a
Summary Plan Description and there is no ERISA Plan
containing an employer’s right to reimbursement.
Critically, pursuant to this Court’s decision in
Amara, the contents of a Summary Plan Description
document that is required to provide “clear, simple
communication” to plan beneficiaries regarding plan
terms cannot, at the same time, set forth the detailed
and specific legally binding contractual terms the
employer seeks to enforce against the ERISA plan
beneficiary. Those terms must come from the plan
document itself as required by ERISA.
B. Background
One of the primary functions of ERISA is to ensure
the integrity of written benefit plans. Dugan v. Hobbs,
99 F.3d 307, 309-10 (9th Cir. 1996); Van Orman v.
American Ins. Co., 680 F.2d 301, 302 (3d Cir. 1982). To
effectuate that goal, ERISA requires a Plan Sponsor to
establish a written “Plan Document,” as defined by 29

6
U.S.C. §1102, and a Plan Administrator to establish a
separate, written “Summary Plan Description,” as
required by 29 U.S.C. §1022.
The Plan document and the Summary Plan
Description each have their own statutory purpose. The
plan document is a written instrument created by the
Plan sponsor, contains the detailed and specific
enforceable contractual terms of the Plan, and is the
written instrument by which the plan administrator
must operate the plan. 29 U.S.C. § 1002(1); 29 U.S.C.
§ 1102. Conversely, the Summary Plan Description
summarizes the relevant portions of the plan
document, Schwartz v. Prudential Ins. Co. of Am., 450
F.3d 697, 700 (7th Cir. 2006) and provides “clear,
simple communication” to plan beneficiaries regarding
plan terms. See Cigna Corp. v. Amara, 563 U.S. 421,
437 (2011).
The differentiation between a Summary Plan
Description and a plan document setting forth the
terms of the plan was laid bare by this Court in Cigna
Corp. v. Amara, 563 U.S. 421 (2011). In Amara, this
Court rejected that the “the terms of statutorily
required plan summaries (or summaries of plan
modifications) necessarily may be enforced (under
§ 502(a)(1)(B)) as the terms of the plan itself.” Id. at
436. This Court’s reasoning was three-fold.
First, this Court found that the text of the statute
itself demonstrated that the information contained
within a Summary Plan Description was not itself part
of the plan:

7
“For one thing, it is difficult to square the
Solicitor General’s reading of the statute with
ERISA § 102(a), the provision that obliges plan
administrators to furnish summary plan
descriptions. The syntax of that provision,
requiring that participants and beneficiaries be
advised of their rights and obligations “under
the plan,” suggests that the information about
the plan provided by those disclosures is not
itself part of the plan. See 29 U.S.C. § 1022(a).
Nothing in § 502(a)(1)(B) (or, as far as we can
tell, anywhere else) suggests the contrary.”
Id.
Second, this Court explained that the division of
authority between the Plan sponsor and the Plan
administrator supported its view that the terms of the
Summary Plan Description were not the terms of the
Plan:
“Nor do we find it easy to square the Solicitor
General’s reading with the statute’s division of
authority between a plan’s sponsor and the
plan’s administrator. The plan’s sponsor (e.g.,
the employer), like a trust’s settlor, creates the
basic terms and conditions of the plan, executes
a written instrument containing those terms and
conditions, and provides in that instrument “a
procedure” for making amendments. § 402, 29
U.S.C. § 1102. The plan’s administrator, a
trustee-like fiduciary, manages the plan, follows
its terms in doing so, and provides participants
with the summary documents that describe the
plan (and modifications) in readily

8
understandable form. §§ 3(21)(A), 101(a), 102,
104, 29 U.S.C. §§ 1002(21)(A), 1021(a), 1022,
1024 (2006 ed. and Supp. III). Here, the District
Court found that the same entity, CIGNA, filled
both roles. See 534 F. Supp. 2d, at 331. But that
is not always the case. Regardless, we have
found that ERISA carefully distinguishes these
roles. See, e.g., Varity Corp., 516 U.S., at 498,
116 S. Ct. 1065, 134 L. Ed. 2d 130. And we have
no reason to believe that the statute intends to
mix the responsibilities by giving the
administrator the power to set plan terms
indirectly by including them in the summary
plan descriptions. See Curtiss-Wright Corp. v.
Schoonejongen, 514 U.S. 73, 81-85, 115 S. Ct.
1223, 131 L. Ed. 2d 94 (1995).”
Id. at 437.
Third, this Court reasoned that the statute’s
objective – to provide clear, simple communication to
plan beneficiaries – would be defeated if the Summary
Plan Description was part of the plan:
“Finally, we find it difficult to reconcile the
Solicitor General’s interpretation with the basic
summary plan description objective: clear,
simple communication. See §§ 2(a), 102(a), 29
U.S.C. § 1001(a), 1022(a) (2006 ed.). To make the
language of a plan summary legally binding
could well lead plan administrators to sacrifice
simplicity and comprehensibility in order to
describe plan terms in the language of lawyers.
Consider the difference between a will and the
summary of a will or between a property deed

9
and its summary. Consider, too, the length of
Part I of this opinion, and then consider how
much longer Part I would have to be if we had to
include all the qualifications and nuances that a
plan drafter might have found important and
feared to omit lest they lose all legal
significance. The District Court’s opinions take
up 109 pages of the Federal Supplement. None
of this is to say that plan administrators can
avoid providing complete and accurate
summaries of plan terms in the manner required
by ERISA and its implementing regulations. But
we fear that the Solicitor General’s rule might
bring about complexity that would defeat the
fundamental purpose of the summaries.”
Id. at 437-8.
Accordingly, this Court concluded that Summary
Plan Descriptions, “important as they are, provide
communication with beneficiaries about the plan, but
that their statements do not themselves constitute the
terms of the plan for purposes of § 502(a)(1)(B).” Id. at
438.
In a concurring opinion, Justice Scalia further
solidified that a Summary Plan Description could not
set forth the terms of the Plan:
“ERISA defines the word “plan” as “an employee
welfare benefit plan or an employee pension
benefit plan or a plan which is both,” 29 U.S.C.
§ 1002(3), and it requires that a “plan” “be
established and maintained pursuant to a
written instrument,” § 1102(a)(1). An SPD, in

10
contrast, is a disclosure meant “to reasonably
apprise [plan] participants and beneficiaries of
their rights and obligations under the plan.”
§ 1022(a). It would be peculiar for a document
meant to “apprise” participants of their rights
“under the plan “ to be itself part of the “plan.”
Any doubt that it is not is eliminated by ERISA’s
repeated differentiation of SPDs from the
“written instruments” that constitute a plan, see,
e.g., §§ 1029(c), 1024(b)(2), and ERISA’s
assignment to different entities of responsibility
for drafting and amending SPDs on the one
hand and plans on the other, see §§ 1002(1),
(2)(A) ; 1021(a) (2006 ed. and Supp. III),
1024(b)(1); Beck v. PACE Int’l Union, 551 U.S.
96, 101, 127 S.Ct. 2310, 168 L.Ed.2d 1 (2007). An
SPD, moreover, would not fulfill its purpose of
providing an easily accessible summary of the
plan if it were an authoritative part of the plan
itself; the minor omissions appropriate for a
summary would risk revising the plan.”
Id. at 446 (emphasis added).
Thus, according to Justice Scalia, ERISA repeatedly
differentiated Summary Plan Descriptions from the
“‘written instruments’ that constitute the ‘plan.’” Id.
While Justice Scalia’s opinion is not binding precedent,
it accurately restated what the Amara majority had
held in Part II(A): that the Summary Plan Description
was separate and distinct from the plan documents
that constitute the plan and set forth the plan terms.
The Court’s analysis thus led to the decision that in
order for terms to be enforceable, they must be in a

11
separate written Plan document, created by the Plan
sponsor, and not in a Summary Plan Description.
Amara involved a situation where the employer
had properly created two separate documents: a Plan
document under 29 U.S.C. §1102, containing the
contractual terms of the plan and a separate Summary
Plan Description summarizing those terms pursuant to
29 U.S.C. §1022.
Instantly, however, MBI did not comply with ERISA
requirements and had only one document, the
Summary Plan Description. Nonetheless, MBI enforced
the terms of the Summary Plan Description in its
502(a)(3) action on the basis that the terms of the
Summary Plan Description were the terms of the plan.
Pet. App. at 25-33. The District Court agreed and
granted summary judgment in MBI’s favor. Id. at 23.
The Eighth Circuit affirmed the District Court’s
granting of summary judgment. In doing so, the Court
relied on Admin. Comm. of Wal-Mart Stores, Inc.
Assocs.’ Health & Welfare Plan v. Gamboa, 479 F.3d
538, 542 (8th Cir. 2007), an Eighth Circuit case that
predated Amara which enforced the reimbursement
terms of a Summary Plan Description against a plan
beneficiary:
“We previously addressed this question in
Gamboa, which rejected the argument that a
summary plan description cannot serve as a
plan. In that case, as in this one, a beneficiary
received benefits under an ERISA plan and also
recovered a settlement with a third party.
Gamboa, 479 F.3d at 540. The plan sought

12
reimbursement, but the district court found that
the reimbursement provision was not an
enforceable part of the plan because it was
contained only in a summary plan description
that was not identified as a formal plan
document. Id. at 540-41, 543. We reversed the
district court’s judgment because the summary
plan description was the only document
providing an identifiable source of plan benefits.
Id. at 544.”
Pet. App. at 5-6 (App. Ct. Op. at *4-5).
Hoch argued that the Eighth Circuit Court’s holding
in Gamboa was superceded by this Court’s Amara
opinion. Id. at 6 (App. Ct. Op. at *5). The Eighth
Circuit recognized that Amara:
“undermines parts of Gamboa’s reasoning, see,
e.g., 479 F.3d at 544 (“[W]e have held that the
terms of a summary plan description prevail
even if they conflict with the provisions of a
formal plan . . . .”)[.]”
Id. at 7 (App. Ct. Op. at *6).
Further, the Court recognized:
To be sure, conflating a plan and a summary
plan description risks undermining ERISA’s goal
that the summary plan description embody
“clear, simple communication,” Amara, 563 U.S.
at 437, and we do not address whether this SPD
meets all the requirements of § 1022.”
Id. at 9 (App. Ct. Op. at *7).

13
However, the Eight Circuit Court refused to find
that Amara overruled its prior holding in Gamboa that
the Summary Plan Description sets forth the
enforceable terms of the plan because Amara “[did] not
address the question we decided in Gamboa: whether,
in the absence of any other plan document providing
benefits, the summary plan description could constitute
the plan.” Id. at 7 (App. Ct. Op. at *6). Ultimately, the
Eighth Circuit determined that the Summary Plan
Description was the Plan document and that “the
equities in this case buttress our conclusion that the
reimbursement provision is enforceable.” Id. at 9 (App.
Ct. Op. at *7).
In sum, the Eighth Circuit evaded the reasoning
and holding of the Amara Court in order to enforce the
terms of the Summary Plan Description. But the
Court’s distinction - that this case is different because
there is only a Summary Plan Description, and not a
separate written plan document - enforces an anomaly
that should never legally exist. ERISA requires both a
written Plan document and a separate Summary Plan
Description. ERISA does not conflate the two
documents and does not authorize a Plan to choose to
have only one or the other.
C. Argument
For the following reasons, this Court’s holding in
Amara is as equally applicable to situations where
there exists only a Summary Plan Description.
First, the text of ERISA demonstrates that ERISA
affirmatively requires a written Plan document and a
separate Summary Plan Description.

14
Second, the division of authority between the Plan
Sponsor and Plan Administrator demonstrates that
ERISA affirmatively requires a written Plan document
and a separate Summary Plan Description and that the
terms of the Summary Plan Description are not
enforceable as the terms of the Plan.
Third, this Court’s concern that Plan administrators
would sacrifice “simplicity and comprehensibility in
order to describe Plan terms in the language of
lawyers” in order to make the Plan summary legally
enforceable is not assuaged where, as here, a single
document acts as both the Plan document and the
Summary Plan Description. In fact, this Court’s
aforementioned concern is directly implicated by the
practice of issuing a single document that acts as both
the written Plan document and the Summary Plan
Description.
Fourth, Amara does not limit its holding to
instances where a Summary Plan Description conflicts
with an ERISA Plan document. Rather, Amara actually
holds that for terms to be effective, those terms must
be contained in the Plan Document and terms
contained only in an SPD are insufficient.
Fifth, granting the petition and reversing the
Eighth Circuit would not put Plan benefits provided
solely under the terms of a Summary Plan Description
in danger.

15
1. The syntax of ERISA § 102(a), requiring
that participants and beneficiaries be
advised of their rights and obligations
“under the Plan,” suggests that the
information about the Plan provided by
those disclosures is not itself part of the
Plan, even where no other Plan document
exists.
This Court’s holding in Amara cannot be so
narrowly constrained to apply only to situations where
there is both a Summary Plan Description and a
separate additional Plan document. Such a constraint
would seem to implicitly authorize that ERISA permits
some other arrangement in which a single document
would serve as both the governing Plan document and
also s the Summary Plan Description despite ERISA’s
requirement for both separate and distinct documents.
However, as explained below, ERISA does not
contemplate or authorize having the written Plan
instrument establishing the Plan also simultaneously
being the Summary Plan Description.
Initially, the Plan document and the Summary Plan
Description each have their own statutory purpose. The
Plan document is a written instrument created by the
Plan sponsor, contains the detailed and specific
enforceable contractual terms of the Plan, and is the
written instrument by which the Plan Administrator
must operate the plan. 29 U.S.C. § 1002(1); 29 U.S.C.
§ 1102.
ERISA requires that the written instrument
establishing the Plan include, at minimum:

16
(1) provide a procedure for establishing and
carrying out a funding policy and method
consistent with the objectives of the plan and the
requirements of this subchapter,
(2) describe any procedure under the plan for the
allocation of responsibilities for the operation
and administration of the plan (including any
procedure described in section 1105(c)(1) of this
title),
(3) provide a procedure for amending such plan,
and for identifying the persons who have
authority to amend the plan, and
(4) specify the basis on which payments are
made to and from the plan.
29 U.S.C. § 1102(b).
Conversely, the Summary Plan Description
summarizes the relevant portions of the Plan
document, Schwartz v. Prudential Ins. Co. of Am., 450
F.3d 697,700 (7th Cir. 2006) and provides “clear, simple
communication” to plan beneficiaries regarding Plan
terms. See Cigna Corp. v. Amara, 563 U.S. 421, 437
(2011). The summary is to include “important Plan
provisions, names and addresses of persons responsible
for Plan investment or management, a description of
benefits, the circumstances that may result in
disqualification or ineligibility and the procedures to be
followed in presenting claims for benefits under the
plan.” See H.R. Rep. No. 93-1280, p.258 (1974); see also
29 U.S.C. § 1022(b).

17
Further, Congress directed that the Plan
Administrator “shall make copies of the latest updated
summary plan description and [...] the bargaining
agreement, trust agreement, contract, or other
instruments under which the plan was established or
is operated available for examination by any plan
participant or beneficiary[.]” 29 U.S.C. § 1024(b)(2)
(emphasis added).
The Plan Administrator is also directed to provide
“a copy of the latest updated summary plan description
and the bargaining agreement, trust agreement,
contract, or other instruments under which the plan is
established or operated.” 29 U.S.C. § 1024(b)(4)
(emphasis added). The use of the conjunctive “and” in
subsections (b)(2) and (b)(4) suggests that Congress
intended that the Summary Plan Description and the
written Plan document were to be two separate and
distinct documents.
As this Court has repeatedly observed, ERISA is a
“‘comprehensive and reticulated statute,’ the product of
a decade of congressional study of the Nation’s private
employee benefit system.” Mertens v. Hewitt Assocs,
508 U.S. 248, 251 (1993) (citing Nachman Corp. v.
Pension Benefit Guaranty Corporation, 446 U.S. 359,
361 (1980)). Because of this, this Court has strictly
adhered to the text of ERISA in deciding ERISA cases.
For example, in Massachusetts Mut. Life Ins. Co. v.
Russell, 473 U.S. 134 (1985), this Court refused to
“infer causes of action in the ERISA context, since that
statute’s carefully crafted and detailed enforcement
scheme provides ‘strong evidence that Congress did not
intend to authorize other remedies that it simply forgot

18
to incorporate expressly.’” Mertens, 508 U.S. at 254
(citing Russell, 473 U.S., at 146-147).
Here, Congress’ requirement that a Plan have both
a written Plan document under section 1102 and a
separate Summary Plan Description under section
1022 evidences its intent that a written Plan document
and the Summary Plan Description are not one in the
same.
The Amara Court affirmed Congress’ intent when it
held that the requirement that “participants and
beneficiaries be advised of their rights and obligations
‘under the plan,’ suggests that the information about
the plan provided by those disclosures is not itself part
of the plan.” Amara, 563 U.S. at 436. As Justice Scalia
aptly stated, it would be “peculiar for a document
meant to ‘apprise’ participants of their rights ‘under
the plan’ to be itself part of the ‘plan.’ Any doubt that
it is not is eliminated by ERISA’s repeated
differentiation of SPDs from the ‘written instruments’
that constitute a plan[.]” Id. at 446.
The Eighth Circuit’s holding below that the
Summary Plan Description can serve as the written
Plan document when there is no separate Plan
document glosses over “ERISA’s repeated
differentiation of SPDs from the ‘written instruments’
that constitute a plan,” Id., and instead enforces
precisely the view that the Amara Court rejected; that
is, that the terms of the Plan summaries may be
enforced as terms of the Plan itself. Enforcing the
terms of a Summary Plan Description in a section
502(a)(3) action, even though this Court held that the
terms of a Summary Plan Description are not

19
enforceable, based solely on the distinction that the
Summary Plan Description can serve as the written
Plan document where there is no Plan document
completely ignores ERISA’s dual requirement of a Plan
document and a separate Summary Plan Description
and excuses MBI’s failure to adhere to this statutory
scheme.
Moreover, such a distinction renders either section
1102 or section 1022 mere surplusage of the other.
MBI’s argument and the Eighth Circuit’s finding that
the Summary Plan Description is also the Plan
document because the Summary Plan Description, as
drafted here, meets the four requirements of 1102(b)
ignores that Congress deliberately crafted ERISA to
require both a written plan document and a separate
Summary Plan Description that is “sufficiently
accurate and comprehensive to reasonably apprise such
participants and beneficiaries of their rights and
obligations” under the Plan document. The contents of
the Summary Plan Description will contain the same
information as the Plan document itself, the only
difference being that the Summary Plan Description is
written so that the average plan member can
understand it.
If Congress had intended for a Summary Plan
Description to be an enforceable Plan document, it
could have easily done so when it enacted ERISA. But
because ERISA is a “‘comprehensive and reticulated
statute,’” and “the product of a decade of congressional
study of the Nation’s private employee benefit system,”
Mertens, supra, Congress could not have intended
either section to be mere surplusage of the other.

20
2. The division of authority between a Plan’s
sponsor and the Plan’s administrator
demonstrates that the terms of the
Summary Plan Description are not
enforceable as the Plan terms, even where
no other Plan document exists.
Congress’ intent that a Plan have both a written
Plan document under section 1102 and a separate
Summary Plan Description is further demonstrated by
ERISA’s careful delineation of the roles of the Plan
Sponsor, responsible for the establishment of the
written Plan document, and the Plan Administrator,
responsible for creating and distributing the Summary
Plan Description.
The Amara Court recognized the division of
authority between the Plan Sponsor and Plan
Administrator:
“Nor do we find it easy to square the Solicitor
General’s reading with the statute’s division of
authority between a Plan’s sponsor and the
Plan’s administrator. The Plan’s sponsor (e.g.,
the employer), like a trust’s settlor, creates the
basic terms and conditions of the Plan, executes
a written instrument containing those terms and
conditions, and provides in that instrument “a
procedure” for making amendments. The Plan’s
administrator, a trustee-like fiduciary, manages
the Plan, follows its terms in doing so, and
provides participants with the summary

21
documents that describe the Plan (and
modifications) in readily understandable form.”
Amara, 563 U.S. at 437 (citations omitted).
Where the same entity serves as both the Plan
Sponsor and Plan Administrator, the distinction is no
less important. As the Amara Court explained:
“Here, the District Court found that the same
entity, CIGNA, filled both roles. But that is not
always the case. Regardless, we have found that
ERISA carefully distinguishes these roles. And
we have no reason to believe that the statute
intends to mix the responsibilities by giving the
administrator the power to set Plan terms
indirectly by including them in the Summary
Plan Descriptions.”
Id. (citations omitted).
Indeed, the distinction between the roles is critical.
The Plan Administrator cannot set Plan terms by
furnishing a Summary Plan Description that it
contends constitutes the binding terms of the Plan. On
this point, the Eighth Circuit stated:
“We emphasized that “ERISA requires every
Plan to provide a procedure governing
amendment of the Plan.” Id. at 485 (citing 29
U.S.C. § 1102(b)(3)). We indicated a purported
grant of discretion appearing only in the SPD
could not be viewed as a procedurally proper
amendment of the policy:

22
To hold that the Summary Plan Description
nonetheless granted the administrator
discretion in this case would be to endorse the
practice of issuing ERISA policies that are silent
on key provisions and later issuing Summary
Plan Descriptions filling the gaps with terms
favoring the employer.... [T]here would ... be
little need to follow formal amendment
procedures if key terms could be changed by a
summary plan description.”
Ringwald v. Prudential Ins. Co. of America, 609 F.3d
946, 949 (8 th Cir. 2010).
As indicated by the Eighth Circuit, a number of
other courts have come to the same conclusion. See
Schwartz v. Prudential Ins. Co. of America, 450 F.3d
697, 700 (7th Cir. 2006) (“”The situation is otherwise ...
when the SPD, as here, says the administrator has
rights, which the plan itself does not confer.... [T]he
SPD [must] be an accurate summary [of the plan], not
an unnegotiated enlargement of the administrator’s
authority.”); Shaw v. Conn. Gen. Life Ins. Co., 353 F.3d
1276, 1283-83 (11th Cir. 2003); Grosz-Salomon v. Paul
Revere Life Ins. Co., 237 F.3d 1154, 1161-62 (9th Cir.
2001)).
Here, a Plan document establishing MBI’s
reimbursement rights does not even exist. The only
source of MBI’s purported right to reimbursement is
found in the Summary Plan Description, which MBI
prepared in its role as Plan Administrator. The Eighth
Circuit’s holding below that the Summary Plan
Description can serve as the written Plan document
where there is no separate, written Plan document

23
essentially blurs the distinction between the role of the
Plan Sponsor and the Plan Administrator. The result
is an impermissible and unnegotiated enlargement of
the rights of the Plan Administrator at the expense of
Plan participants.
This is not an exercise in elevating form over
substance. Allowing the Plan Administrator to set the
terms of the Plan by permitting the Summary Plan
Description to also serve as the written Plan document
governing the Plan significantly affects the rights of
the Plan’s beneficiaries. For example, the
reimbursement provision in MBI’s Summary Plan
Description purportedly obviates the Made Whole
doctrine. See Pet. App. at 47 (“This right of
reimbursement shall apply to any such recovery to the
extent of any benefits paid under this Benefit Plan
even if the Member has not received full compensation
for the injury or condition.”). MBI’s inclusion of the
provision obviating the Made Whole doctrine in the
reimbursement provision of the Summary Plan
Description negates whatever equitable defense a
member may have to MBI’s reimbursement claim. See
U.S. Airways, Inc. v. McCutchen, 569 U.S. 88, 106
(2013). Thus, MBI, acting solely in its role as the Plan
Administrator, not only enlarges its own rights, but
contracts the rights of the Plan’s beneficiaries. This is
not the arrangement that ERISA intended.

24
3. Congress’ objective of achieving clear,
simple communication is contravened if
the Summary Plan Description is made
legally enforceable, even where no other
Plan document exists.
As this Court has repeatedly stated, “[o]ne of
ERISA’s central goals is to enable Plan beneficiaries to
learn their rights and obligations at any time.”
Curtiss-Wright Corp. v. Schoonejongen, 514 U.S. 73,
83-84 (1995). This goal is effectuated “through a
comprehensive set of “reporting and disclosure”
requirements[.]” Id. (citing 29 U.S.C. §§ 1021-1031).
Thus, ERISA requires that a Summary Plan
Description be “written in a manner calculated to be
understood by the average plan participant, and shall
be sufficiently accurate and comprehensive to
reasonably apprise such participants and beneficiaries
of their rights and obligations under the plan.” See 29
U.S.C. § 1022(a). The clear purpose is to “create an
objective standard, a type of plain-language
requirement in contrast to the often overly technical
lawyerese that tends to be employed in the underlying
plan documents themselves.” Diaz v. United Agr. Emp.
Welf. Benefit Plan, 50 F.3d 1478, 1485 (9th Cir. 1995).
This mandate “stems from the reality that the
average person cannot reasonably be expected to
assimilate all information contained in a voluminous
health insurance plan. In requiring a compendium of
the actual plan’s benefits, terms and conditions,
Congress intended to apprise plan participants, in
laymen’s terms, of their rights under the plan.” Daniel

25
v. Master Health Plan, Inc., 864 F. Supp. 1399, 1407
(S.D. Ga. 1994).
The Eighth Circuit’s holding below that the
Summary Plan Description can serve as the written
Plan document when there is no separate, written Plan
document directly implicates this Court’s concern that
Plan Administrators would sacrifice “simplicity and
comprehensibility in order to describe Plan terms in
the language of lawyers” in order to make the Plan
summary legally enforceable.
In the courts below, MBI argued that the contents
of the Summary Plan Description should be enforced as
a Plan document because the Summary Plan
Description meets the criteria for a Plan document:
“As noted above, an ERISA plan document must
set forth the method of funding, allocate
responsibility for administration and operation
of the Plan, provide a procedure to amend the
plan, and specify how benefits are paid from the
plan. The SPD should be enforced because it is
indisputably a written document and clearly
meets all of these criteria.”
Pet. App. at 54.
MBI further opined that the Summary Plan
Description provided exhaustive details regarding the
terms of the plan:
“[T]he SPD provides exhaustive details about the
benefits and obligations of Plan participants
including information about deductibles,
coinsurance, out-of-pocket maximums, waiting

26
periods, in-network versus out-of-network
providers, accessing the Blue Card Network,
services that are covered by the Plan, services
that are excluded by the Plan, how benefits are
coordinated with other plans, the claims and
appeal process, and also provides the Plan’s
right of reimbursement and subrogation.”
Pet. App. at 55 (emphasis added).
This is precisely the sort of practice that Congress
sought to avoid when enacting ERISA’s administration
and disclosure requirements. The Eighth Circuit’s
holding only reinforces the practice of issuing a single
document that acts as both the written Plan document
and the Summary Plan Description.
ERISA’s goal of achieving clear, simple
communication through a Summary Plan Description
is completely undermined by the practice of drafting
the Summary Plan Description with “exhaustive
detail,” and in the language of lawyers in order to
“include all the qualifications and nuances that a plan
drafter might have found important and feared to omit
lest they lose all legal significance.” Amara, 563 U.S. at
437-8. Even the Eighth Circuit recognized that Amara
“undermines parts of Gamboa’s reasoning, see, e.g., 479
F.3d at 544 (“[W]e have held that the terms of a
summary plan description prevail even if they conflict
with the provisions of a formal plan . . . .”)[.]” Id. at 7
(App. Ct. Op. at *6). The Court further recognized that
“conflating a plan and a summary plan description
risks undermining ERISA’s goal that the summary
pl a n descri pt i on em b o d y ‘ c l e a r , si m pl e
communication[.]’” Id. at 9 (App. Ct. Op. at *7).

27
The requirement that a Summary Plan Description
be “written in a manner calculated to be understood by
the average plan participant” is rendered utterly
meaningless by the practice of writing the “summaries”
in exhaustive detail and in the language of lawyers
with the intent of enforcing the terms of the
“summaries” against the plan beneficiary in an ERISA
action.
4. Amara does not limit its holding to
instances where a Summary Plan
Description conflicts with an ERISA Plan
document.
Fourth, Amara does not limit its holding to
instances where a Summary Plan Description conflicts
with a separate, written Plan document. Rather,
Amara actually holds that for terms to be effective,
those terms must be contained in the Plan Document
and terms contained only in a Summary Plan
Description are insufficient.
In fact, an anomalous result would follow if the
holding of Amara was limited to plans that had both a
plan document and a Summary Plan Description.
While the Amara Court’s decision sprang from the fact
that the ERISA plan at issue had both a plan document
and a Summary Plan Description, the holding and
reasoning of Amara does not logically end there.
ERISA requires both a plan document and a
Summary Plan Description. It does not permit any
other arrangement. The distinction that the Eighth
Circuit drew - that this case is different and mandates
a different result because there is only a Summary

28
Plan Description, and not a separate written plan
document - enforces an anomaly that should never
legally exist.
If a Plan complies with ERISA and the Plan sponsor
establishes a Plan by creating a written plan document
and the Plan Administrator creates a Summary Plan
Description summarizing that plan document, the
written plan document prevails over the Plan
Administrator’s Summary Plan Description in the
event of a conflict.
Conversely, if a Plan does not follow ERISA, and the
Plan sponsor does not establish a written Plan
document as required, the Plan Administrator would
have the unconstrained ability to set the terms of the
Plan and act as it pleased by simply inserting a term
into the Summary Plan Description.
Thus, by not following the requirements of ERISA,
a Plan Administrator would have greater rights over a
beneficiary than it otherwise would have if the Plan
sponsor simply complied with ERISA and created a
separate written plan document.
5. Granting the petition would not put Plan
benefits provided solely under the terms of
a Summary Plan Description in danger.
Initially, MBI should bear the burden of its failure
to adhere to ERISA’s requirements, not the Plan
beneficiaries.
Nevertheless, at both the District Court and the
Eighth Circuit, MBI argued that MBI employees will
apparently lose all their benefits if the reimbursement

29
provision of the Summary Plan Description was not
enforced as a term of the Plan. MBI’s reasoning was
that if the reimbursement provision could not be
enforced, then neither could the benefits provisions.
Pet. App. at 52-53.
While the Eighth Circuit did not directly address
this issue, the Court alluded to equitable
considerations in enforcing the terms of the Summary
Plan Description as the terms of the Plan:
“Having received medical benefits in accordance
with the [summary plan description], we will not
permit a participant to deny the corresponding
responsibilities and obligations that are clearly
imposed on the participant in the same
document—what is good for the goose is good for
the gander.” 479 F.3d at 545. We likewise noted
the importance of reimbursement in
maintaining the “financial viability” of
self-funded plans with limited resources. Id. at
545-46.
Id. at 9 (App. Ct. Op. at *7).
First, the question of whether a Plan beneficiary
may enforce the benefits provisions of the Summary
Plan Description in an ERISA action is not before this
court and is not implicated by the question that Hoch’s
petition seeks to raise. Hoch’s petition only concerns
the question of whether a Plan Administrator may
enforce the reimbursement term of a Summary Plan
Description in an action under section 502(a)(3).
Second, the consequences of MBI’s reliance on the
terms of a Summary Plan Description in its section

30
502(a)(3) action should fall squarely on MBI’s
shoulders. As meticulously explained, ERISA’s
carefully crafted and detailed scheme requires a benefit
Plan to have both a written plan document by which
the Plan is governed and a separate Summary Plan
Description written in a manner that a Plan
beneficiary may easily understand. One document - the
Plan document - governs the terms of the Plan. The
other document - the Summary Plan Description informs the beneficiary of what those terms are. The
former is binding; the latter is not, regardless of
whether the former actually exists.
Third, ERISA plan beneficiaries can enforce their
rights that are contained in a Summary Plan
Description as a matter of fiduciary duty. Baker v. Pa.
Economy League, Inc. Retirement Income Plan, 811 F.
Supp. 2d 1136 (E.D. Pa. 2011); Koehler v. Aetna Health
Inc., 683 F.3d 182 (5th Cir. 2012); Stiso v. Int’l Steel
Group, No. 13-3503 (6th Cir. Mar. 25, 2015).
As aforementioned, the Eighth Circuit’s decision to
enforce the terms of the Summary Plan Description as
the terms of the Plan was not based on the terms of a
Plan document, but was based on nothing more than
what it viewed as “the equities in this case.” Pet. App.
at 9 (App. Ct. Op. at *7). But section 502(a)(3) does not
authorize enforcement of “the equities.” Section
502(a)(3) authorizes only the enforcement of the plan
terms through “appropriate equitable relief.”
This Court clearly held in Amara that Summary
Plan Descriptions, “important as they are, provide
communication with beneficiaries about the plan, but
that their statements do not themselves constitute the

31
terms of the plan.” Amara, 563 U.S. at 438. Knowing
this clear holding, MBI maintained only a Summary
Plan Description and did not set forth the terms of the
Plan in a separate Plan document. The consequence
that MBI must face for its failure to comply with
ERISA’s legislative scheme is its inability to enforce its
purported reimbursement right in a 502(a)(3) action
against a Plan beneficiary.
CONCLUSION
In sum, the Eighth Circuit’s holding below directly
conflicts with this Court’s holding in Amara that
Summary Plan Descriptions, “important as they are,
provide communication with beneficiaries about the
plan, but that their statements do not themselves
constitute the terms of the plan.” Amara, 563 U.S. at
438.
The distinction that the Summary Plan Description
can serve as the written Plan document where no other
Plan document exists does not affect this Court’s
holding the statements in a Summary Plan Description
do not themselves constitute the terms of the Plan.
Recognizing such a distinction ignores ERISA’s dual
requirement of a Plan document and a separate
Summary Plan Description, excuses MBI’s failure to
adhere to this statutory scheme, and seriously
undermines ERISA’s goal of achieving clear, simple
communication regarding the terms of the Plan.

32
Respectfully Submitted,
Robert Pratter, Esq.
Counsel of Record
Cohen, Placitella and Roth
127 Maple Avenue
Red Bank, NJ 07701
rpratter@cprlaw.com
(215) 567-3500
Charles Kannebecker, Esq.
The Law Office of Charles Kannebecker
104 W. High Street
Milford, PA 18337
kannebecker@wskllawfirm.com
(570) 296-6471
Counsel for Petitioner

